           Budget Enforcement Procedures
               and the Postal Service




                            February 22, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-007
U.S. Postal Service Office of Inspector General                                                     February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                RARC-WP-12-007



                           Budget Enforcement Procedures
                               and the Postal Service


                                          Executive Summary

Although the U.S. Postal Service is an independent establishment whose finances are
by law separate from the executive branch budget, its financial independence is
compromised by budget scoring considerations that prevent enactment of legislative
changes needed to avert financial default. The U.S. Postal Service Office of Inspector
General (OIG) explored these obstacles in an August 2009 white paper entitled Federal
Budget Treatment of the Postal Service, pointing out the limited advantages conferred
by the existing implementation of the Postal Service’s off-budget status and
recommending that the Postal Service take further steps to reduce its entanglement
with federal budget issues.1 In the two and a half years since publication of that paper,
budget pressures on both the federal government and the Postal Service have become
even more acute and budget-related obstacles to legislative relief even more
consequential. This report updates the analysis in the 2009 white paper and, with the
prospect that the Postal Service will continue to be affected by national budget issues,
explains how budget enforcement mechanisms such as scoring work and how they can
be addressed.

Federal Budget Treatment of the Postal Service

The 2009 white paper outlines how the Postal Service budget has been treated since
the Postal Reorganization Act of 1970 exempted it from general budget and funding
laws. In the early years after reorganization the Postal Service was or was not included
in the President’s budget by administrative decision, often depending on whether it was
running a short-term surplus or deficit. In 1989, however, the Postal Service won
permanent off-budget status based on a congressional policy decision that because it
was fully funded by postage revenues “the Postal Service does not contribute to the
Federal deficit problem” and should not be included in deficit reduction plans.2 Social
Security is the only other federal program with off-budget status.

Off-budget status for the Postal Service Fund has proven to be a poor shield against
entanglement in budget squabbles. While the Postal Service Fund is by law officially not
included in the budget totals the President sends to Congress each year, its receipts
and expenditures are indeed part of a broad economic concept called the “unified


1
  U.S. Postal Service Office of Inspector General, Federal Budget Treatment of the Postal Service, Report No.
ESS-WP-09-001, August 27, 2009, http://www.uspsoig.gov/foia_files/ESS-WP-09-001.pdf.
2
  House Committee on Post Office and Civil Service, Postal Reorganization Act Amendments of 1989, H. Rpt.
No. 101-177, July 26, 1989, p. 3. At that time, postal rates were set so that the Postal Service would break even.




                                                           i
U.S. Postal Service Office of Inspector General                                                    February 22, 2012
Budget Enforcement Procedures and the Postal Service                                               RARC-WP-12-007


federal budget” that captures all government transactions with the public.3 A second
complicating factor is that Postal Service contributions toward the pensions and health
benefits of its retirees are held in on-budget Treasury accounts, so that any reduction in
the contribution levels, even to rectify overpayments, appears to be a reduction in
government income and is scored as an increase in the budget deficit. These factors
undermine the meaning of the Postal Service’s off-budget status. They expose the
Postal Service to an inappropriate and illogical application of the scoring process that
threatens its ability to reform and heal its financial condition. Scoring and budget
enforcement were created for a good purpose, but they are undermined when the
scoring process assumes that unlikely or inappropriate inflows to the Treasury must
occur.

The 2009 white paper describes how the Postal Service’s budget status worked to the
disadvantage of the Postal Service and its supporters in Congress as they sought to
address the deterioration in Postal Service finances in the past decade. For example,
when it was determined in 2002 that the Postal Service was setting aside much more
than necessary to meet all of its obligations to its retirees in the Civil Service Retirement
System (CSRS), a simple revision to the funding schedule was ruled out by budget
scoring considerations. The Postal Service was required by legislation passed in 2003
to keep up its level of payments to the Treasury, first by paying off the debt it had
accumulated over 30 years, and then by keeping the excess payments in a Treasury
“escrow fund” that could not be spent.4 In addition, the Postal Service was charged for
the CSRS pension obligations earned by its employees for their prior military service, an
amount previously paid by the Treasury.

Legislation in 2006 returned the military pension obligation to the Treasury and removed
the escrow payment requirement, but substituted comparable required payments to the
Treasury in the form of 10 years of annual payments of $5.4 billion to $5.8 billion into a
newly created Postal Service Retiree Health Benefits Fund.5 The numbers were not
actuarially based, and the 10-year period of the payment schedule was based on the
timeframe of the budget score. Although prefunding was beneficial when funds were
available in 2006, these legislatively mandated payments have contributed to the
current threatened insolvency.




3
  Under 39 U.S.C. § 2009a, “the receipts and disbursements of the Postal Service Fund, including disbursements for
administrative expenses incurred in connection with the Fund (1) shall not be included in the totals of (A) the budget
of the United States Government as submitted by the President, or (B) the congressional budget (including
allocations of budget authority and outlays provided therein).” The President’s budget submission, however, includes
off-budget and unified budget totals as well as the Postal Service’s anticipated revenue and spending for
informational purposes.
4
  Postal Civil Service Retirement System Funding Reform Act of 2003, Public Law 108-18, April 23, 2003, Sec. 3.
5
  Public Law 109-435, December 20, 2006, Secs. 802 and 803.




                                                          ii
U.S. Postal Service Office of Inspector General                                                   February 22, 2012
Budget Enforcement Procedures and the Postal Service                                              RARC-WP-12-007


It is apparent from this truncated history, recounted much more fully in the 2009 white
paper, that the Postal Service has never been able to take advantage of the
independence from national deficit reduction struggles that Congress intended by taking
the Postal Service Fund off budget in 1989. Even today, budget scoring obstacles are
making it difficult to rectify what everyone agrees is a systematic overfunding of Postal
Service obligations to the Federal Employees’ Retirement System (FERS).

On-Budget versus Off-Budget Effects

A critical problem hampering legislative solutions is the importance of both off-budget
and on-budget effects for calculating the consequence of proposals for the federal
deficit. The 2009 white paper notes that while some budget enforcement mechanisms
operate against legislation increasing the total unified deficit, including both on-budget
and off-budget effects, others operate only when on-budget caps would be exceeded.
Many recent legislative efforts have involved reducing payments to the Postal Service’s
on-budget retirement accounts. In these cases, estimates of the on-budget effects can
appear much more damaging to the federal deficit than the broader unified estimates.
The diagram below shows the off-budget and on-budget accounts most relevant to the
Postal Service.

                          Flow of Funds to On-Budget and Off-Budget Accounts

                                                      Unified Budget



                                     Off Budget                           On Budget

                                                                         Retiree Health
                                                                         Benefits Fund

                      Postal
                     Revenue
                                                                         Pension Fund
                                    Postal Service                     Civil Service Retirement
                                        Fund                             and Disability Fund
                    Operational
                    Expenses
                                                                          Other Federal
                                                                            Accounts
                                                                         such as for retiree
                                                                            premiums



Source: U.S. Postal Service Office of Inspector General.


The off-budget Postal Service Fund and its companion fund, the Competitive Products
Fund, take in revenue from Postal Service products and services. (The Competitive
Products Fund is not shown in the diagram for purposes of simplicity.) The Postal
Service uses the funds to pay operational expenses.


                                                           iii
U.S. Postal Service Office of Inspector General                                                     February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                RARC-WP-12-007


The Postal Service is also required to make payments from the Postal Service Fund to
on-budget governmental accounts. For example, the Postal Service makes pension
contributions for FERS to the Civil Service Retirement and Disability Fund. Legislatively
reducing these on-budget flows increases the on-budget deficit. A bill that proposes
stopping $3 billion in Postal Service FERS payments will increase the on-budget deficit
by $3 billion. The Postal Service Fund will be $3 billion better off, but there will be a
problem if budget enforcement procedures consider only on-budget consequences.
From the standpoint of the unified budget, such a bill is budget neutral — the on-budget
deficit increases by $3 billion but off-budget losses decrease by $3 billion — as long as
the Postal Service does not do anything to increase its spending or reduce its revenue.
Recently, however, the Congressional Budget Office (CBO) has generally been
assuming that the Postal Service will change its behavior and relax its cost cutting
efforts, spending 50 percent of this on-budget relief. The consequence is an increase in
the unified budget deficit. The table below shows the budgetary effects of reducing the
Postal Service’s FERS payments by $3 billion with and without these behavioral effects.
                              FERS Example: Budgetary Effects of Reducing
                              Postal Service’s FERS Contribution by $3 Billion

                                                                 Assuming       Assuming
                                                                    No          Behavioral
                                                                 Behavioral     Effects of
                               Budgetary Effects                  Effects          50%
                         On-Budget Effect                        + $ 3.0 B      + $ 3.0 B
                         Off-Budget Effects                      - $ 3.0 B      - $ 1.5 B
                         Unified Budget Effects                   $0B           + $ 1.5 B
                        Note: + increase to deficit; - reduction of deficit.

One option for dealing with the problem of budget enforcement mechanisms that look
only at on-budget effects is for the Postal Service’s pension and retiree health care
accounts to be separated from the federal accounts and brought off budget. Such a
change would make it possible to return overfunding to the Postal Service without an
on-budget deficit, although behavioral effects could still be an issue.

The 2009 white paper recommended that the Postal Service investigate bringing its
pension and retiree health care accounts off budget among several options to reduce
the impact of budget scoring obstacles on its legislative program. The Postal Service
made a proposal that would have that effect on August 2, 2011. It proposed “to
segregate once and for all” the Postal Service’s health and retirement benefit programs
from those of the rest of the government, with the Postal Service taking full
responsibility for their financing and administration. None of the bills introduced in
Congress to address postal financial problems have incorporated this approach.6



6
  S. 1789, the 21st Century Postal Service Act of 2011, would allow for the Postal Service to negotiate with its unions
to develop a postal-specific health plan for current employees.




                                                            iv
U.S. Postal Service Office of Inspector General                                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                                         RARC-WP-12-007


Modifications have been proposed for the Postal Service’s off-budget status. The deficit
reduction plan released by President Barack Obama’s Administration in
September 2011 would restructure Postal Service retirement and retiree health
contributions, allow it to institute 5-day delivery, and immediately institute an exigent
rate increase.7 It also would amend a significant on-budget enforcement mechanism,
the Statutory Pay-As-You-Go Act of 2010 (Statutory PAYGO Act), to provide that
“off-budget effects of the Postal Service Fund shall be considered as on-budget
effects.”8 This seemingly simple change allows the savings that the Postal Service could
achieve by reducing delivery days, as well as the revenues from the legislated rate
increase, to be included with the reductions in retirement and retiree health payments to
the Treasury as on-budget effects. The result is that the net effect of the President’s
September proposal, according to the Office of Management and Budget (OMB), would
be a decrease in the government-wide deficit of nearly $19 billion over the 10-year
period 2012 to 2021 rather than a $10.4 billion increase in the on-budget deficit.

A recent proposal by the House Committee on the Budget to reform the budget process
went further and would have completely repealed the Postal Service’s off-budget
status.9 This provision, however, was not included in the final version of the legislation
passed by the House.10 If such a repeal were enacted, it would have the same effect on
scoring as the President’s plan, but the Postal Service Fund would not necessarily have
the same protections against future spending limits or across-the-board spending cuts
— a process known as sequestration — as it does now.11

Budget Enforcement Changes Will Profoundly Affect the Postal Service

The Administration’s proposal to count the off-budget effects of postal legislation as
on-budget effects is controversial and a long way from adoption. Nevertheless, it is
evidence that the treatment of Postal Service finances in budget enforcement
negotiations remains of paramount importance to the achievement of postal legislative
goals. Both the House and Senate Oversight Committees have developed postal
legislation (H.R. 2309 and S. 1789), and individual members have introduced other bills
as well. All of the legislative proposals will run into the same problem of showing an on-
budget deficit if they have the net effect of reducing the flow of Postal Service payments
to on-budget accounts.


7
  The President’s 2013 budget released on February 13, 2012, includes similar proposals.
8
  Office of Management and Budget, The President’s Plan for Economic Growth and Deficit Reduction: Legislative
Language and Analysis, September 23, 2011, pp. 35-36. See also the discussion at Democratic Members, House
Committee on Oversight and Government Reform, Recommendations to the Joint Select Committee on Deficit
Reduction, October 18, 2011,
http://democrats.oversight.house.gov/images/stories/JSC_Recommendations_101211.pdf, pp. 18-19.
U.S. House of Representatives
9
  House Committee on the Budget, “Budget Process Reform,” http://budget.house.gov/BudgetProcessReform/.
10
   H.R. 3581, the Budget and Accounting Transparency Act of 2011, as introduced on December 7, 2011, would have
repealed 39 U.S.C. § 2009a and § 2011(f). The provision was removed when the bill was reported.
11
   H.R. 3581 as introduced would remove the Postal Service Fund’s protection from statutory budget limits on
expenditures (39 U.S.C. § 2009a(2)). While the Statutory PAYGO Act separately exempts the Postal Service Fund
from its sequestration provisions, future budget legislation might not.




                                                       v
U.S. Postal Service Office of Inspector General                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                         RARC-WP-12-007


As the 2009 paper points out, the Postal Service, because of its off-budget status, has
tended to remain aloof from budget process and enforcement issues. It deferred to the
OMB and the CBO on the budget implications of its legislative program and regarded
budget issues as beyond its purview or control. A case can be made, however, that it is
more important than ever for the Postal Service to take early initiative and engage with
more foresight in the debate over its treatment in the federal budget. It is far from clear
that either the Obama Administration’s proposal or the effort to bring the Postal Service
on budget will ultimately succeed, but it would be beneficial for the Postal Service to
have a view on whether either option is a good alternative.

Beyond proposals to adjust the Postal Service’s off-budget status, there have been
several significant changes to the budget enforcement process since the 2009 paper:

        The Statutory PAYGO Act is one new feature. It became law on February 12,
         2010 and marks the return to statutory controls enforcing budget neutrality.12
         After 2002, legislation requiring budget neutrality had expired leaving House and
         Senate rules as the primary means of enforcement. The Statutory PAYGO Act
         considers on-budget legislative effects only and preserves the off-budget status
         of the Postal Service Fund.

        In January 2011 the new Republican majority in the House replaced the House
         PAYGO rule, which dated from 1997, with a Cut-As-You-Go (CUTGO) rule.13 The
         CUTGO rule bars the consideration of legislation that has the net effect of
         increasing mandatory spending even if it is offset by increased tax revenue. Like
         the PAYGO rule it replaced, it covers off-budget as well as on-budget
         transactions.

        The Budget Control Act enacted in August 2011 has placed spending caps on
         total appropriations and raised the possibility that large automatic cuts may be
         triggered on defense and other spending.14 While the Postal Service’s own funds
         should not be affected by these spending cuts, the resulting environment may
         make passing any legislation that appears to increase the deficit more difficult.

All of these changes could influence the success of postal legislation. Another new
element in the equation is the imminent end of the Social Security Trust Fund surplus.
The presence of a net inflow into the Social Security trust fund created a political
incentive to use the unified budget as the best deficit measure. The excess
contributions coming into the Social Security Trust Fund offset on-budget deficits. When
Social Security payments start exceeding contributions, the political incentive to use the
unified budget will disappear. The Postal Service Fund, as the only other off-budget
entity, is likely to be affected by any changes in the budget treatment of the Social
Security Trust Fund.

12
   Public Law 111-139.
13
   U.S. House of Representatives, Rule XXI, Clause 10,
http://www.rules.house.gov/singlepages.aspx?NewsID=142&rsbd=165.
14
   Public Law 112-25.




                                                    vi
U.S. Postal Service Office of Inspector General                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                        RARC-WP-12-007


If the Postal Service is to engage more actively and with more foresight in the debate
over its treatment in the federal budget, it is important that the relevant postal
employees and stakeholders have a sophisticated and comprehensive understanding of
the process by which budgetary decisions are made and negotiated. An in-depth
description of ways that budgets are formulated in the executive and legislative
branches may be of use. The OIG is not aware of any document that focuses on the
application of budget process requirements as they affect the Postal Service. To fill the
gap, this white paper was prepared in consultation with experts in the budget process. It
reviews budget enforcement procedures with particular attention to their application to
legislative initiatives of the Postal Service. As a complement to the 2009 paper, it
provides rules and strategies for operating within this environment. The paper describes
statutes, precedents, differing rules of the House and the Senate, and waiver provisions
that defy simplification. Navigating this maze is critical for achieving legislative goals.

The OIG argued in its 2009 white paper that the Postal Service as a self-financing entity
should be entirely off budget and its legislative agenda should not be stymied by budget
scoring. Such a treatment is in keeping with the Postal Reorganization Act’s intention to
make the Postal Service’s finances independent from the federal government’s. Until
such an outcome can be achieved, however, the second best solution is for the Postal
Service and its stakeholders to understand the current landscape better so that they can
be more effective in pursuing a constructive legislative agenda.




                                                 vii
U.S. Postal Service Office of Inspector General                                                               February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                          RARC-WP-12-007



                                                 Table of Contents

Introduction ..................................................................................................................... 1 

Overview of Budget Enforcement .................................................................................... 1 
          What Is Budget Enforcement? .............................................................................. 1 
          Who Is Involved in the Budget Enforcement Process? ......................................... 2 
          What Processes Are Used to Enforce the Budget? .............................................. 2 

Characteristics of the Budget Enforcement Process ....................................................... 5 

Enforcement Procedures under the Congressional Budget Act of 1974 ......................... 7 
          The Budget Resolution ......................................................................................... 8 
          Content of the Budget Resolution ....................................................................... 10 
          The Mechanisms of Enforcement: Points of Order and the
          Reconciliation Process ....................................................................................... 11 
          Other Elements of Enforcement: The Baseline, Cost Estimates,
          and Scorekeeping............................................................................................... 14 

Enforcement Procedures under Other Authorities ......................................................... 20 
          Statutory PAYGO Act of 2010 ............................................................................ 20 
          House CUTGO Rule ........................................................................................... 21 
          Budget Control Act of 2011 ................................................................................ 21 

Excluding Legislation from Budget Controls .................................................................. 22 

Application of Budget Enforcement Procedures to Postal Service
Legislation ..................................................................................................................... 24 
          Overview ............................................................................................................ 24 
          2009 Illustration of Enforcement Problem ........................................................... 26 
          Options for Dealing with Future Budget Enforcement Issues ............................. 29 




                                                                viii
U.S. Postal Service Office of Inspector General                                                        February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                   RARC-WP-12-007


                                                    Tables

Table 1           Current Budget Enforcement Procedures .............................................. 5 

Table 2           Timeline for Budget Process.................................................................. 8 

Table 3           Selected Points of Order in the Congressional Budget
                  Process ............................................................................................... 12 

Table 4           Summary of Selected Budget Enforcement Procedures ..................... 33 


                                                    Figures

Figure 1          U.S. Government Spending in FY 2011 Including
                  On-Budget and Off-Budget Transactions .............................................. 3 

Figure 2          Budget Process ..................................................................................... 9 

Figure 3          Elements of Scorekeeping ................................................................... 14 

Figure 4          Budget Baseline for FY 2012 to FY 2022 ............................................ 15 

Figure 5          CBO Cost Estimate for S. 1789 ........................................................... 17 

Figure 6          CBO Cost Estimate for 2009 Reduction of Prefunding
                  Payment .............................................................................................. 27 


                                                Appendices

Appendix A        Recent History of Budget Enforcement ............................................... 33 

Appendix B        The Budget Reconciliation Process ..................................................... 35 

Appendix C        The Statutory PAYGO Act of 2010 ...................................................... 37 




                                                          ix
U.S. Postal Service Office of Inspector General                           February 22, 2012
Budget Enforcement Procedures and the Postal Service                      RARC-WP-12-007




                       Budget Enforcement Procedures
                           and the Postal Service


Introduction
Budget enforcement procedures are an important element in determining how public
policy is developed and implemented by the federal government. Congress and the
President employ budget enforcement procedures to shape legislation and, under
certain circumstances, determine how it is executed by departments and agencies.

The influence of budget enforcement procedures on the passage of legislation can vary.
In situations where fiscal responsibility is a paramount concern, budget enforcement
procedures may be used to defeat the passage of legislation that violates current
budget policies, or to deter Congress from considering such legislation altogether.
When political or policy dictates override concerns about fiscal restraint, budget
enforcement procedures may be set aside, often by means of “safety valves” included
within the procedures themselves, to allow legislation to be passed.

This paper examines budget enforcement procedures, principally as they are employed
by the House and Senate in the legislative process. Following a general discussion that
identifies budget enforcement procedures and explains how they operate, the paper
reviews their application to U.S. Postal Service legislation, including an illustration
drawn from actions occurring in the 111th Congress. In addition, the paper briefly
discusses several approaches for addressing potential budget enforcement
impediments to the consideration of legislation improving the Postal Service’s financial
position.


Overview of Budget Enforcement

What Is Budget Enforcement?

In the largest sense, budget enforcement encompasses rules and procedures governing
actions by both Congress and the President. Budget enforcement is intended to
promote the consideration, enactment, and implementation of
                                                                 Budget enforcement
legislation that is consistent with the current budget plan or
                                                                 is intended to
other budgetary objectives. In most years, the current budget    promote legislation
plan is the most recent concurrent resolution on the budget      consistent with
(“budget resolution”) agreed to by the House and Senate.         budget objectives.
Other budgetary objectives beyond those established in the
budget resolution may be enforced as well, such as the statutory requirement that
legislation affecting revenues, mandatory spending, or both comply with “pay-as-you-


                                                  1
U.S. Postal Service Office of Inspector General                           February 22, 2012
Budget Enforcement Procedures and the Postal Service                      RARC-WP-12-007


go” (PAYGO) rules. Under these rules, even if Congress fails to agree to a spending
plan, enforcement mechanisms designed to keep spending from growing are still in
place.

In reaching agreement on a budget resolution, the House and Senate make a judgment
regarding the appropriate budgetary policies to be pursued in terms of total spending,
total revenues, the resulting deficit (or surplus), and other elements over a multiyear
timeframe. Implementing the budget resolution relies on the subsequent consideration
and passage of dozens of individual spending and revenue measures, with nearly every
                            House and Senate committee exercising jurisdiction over
  Budget enforcement        some of them. As particular legislative proposals are
  procedures return         considered, especially those to expand popular programs, it
  members’ focus to         is easy for members of Congress to lose sight of their
  their commitment to
                            commitment to budget discipline. Budget enforcement
  budget discipline.
                            procedures return the focus to these commitments and allow
the House and Senate to consider the individual measures in a coordinated fashion,
assessing the cost of each measure and evaluating its impact on the overall plan.

Who Is Involved in the Budget Enforcement Process?

In Congress, the chief budget enforcement agents are the House and Senate Budget
Committees, which exercise jurisdiction over the annual budget resolution and monitor
compliance with its overall budget policies. The two committees, however, do not
operate in a vacuum. Their enforcement activities must be integrated with the political
and legislative agendas set by the leadership, and the resolution of individual
enforcement issues usually involves negotiation with the affected revenue and spending
committees. As the enforcers of budget discipline, the Budget Committees sometimes
are unpopular and viewed by other participants as obstacles to be overcome in the
pursuit of their legislative goals. The Budget Committees are assisted in their tasks by
several support entities, primarily the Congressional Budget Office (CBO) and the Joint
Committee on Taxation (JCT).

The President also plays an important role in budget enforcement, although it is mainly
an informal one during the consideration of legislation by the House and Senate. The
President’s key agent in budget enforcement, the Office of Management and Budget
(OMB), is an important participant as well.

What Processes Are Used to Enforce the Budget?

Budget enforcement is more than a single set of procedures, because budget
enforcement procedures must be able to accommodate legislation involving different
types of budgetary transactions and a complex scheme of
                                                                 Budget enforcement
House and Senate committee jurisdiction. At the most basic       is more than a single
level, for example, total federal spending is divided into two   set of procedures.
categories: (1) discretionary spending, which is controlled
by and provided in annual appropriations acts under the jurisdiction of the House and



                                                  2
U.S. Postal Service Office of Inspector General                                                    February 22, 2012
Budget Enforcement Procedures and the Postal Service                                               RARC-WP-12-007


Senate Appropriations Committees; and (2) mandatory spending, which is controlled by
(and usually provided in) substantive laws under the jurisdiction of the legislative
committees, (such as the Energy and Commerce Committee in the House or the
Homeland Security and Governmental Affairs Committee in the Senate).15 Figure 1
shows U.S. government spending for fiscal year (FY) 2011 broken out by category.16

                               Figure 1: U.S. Government Spending in FY 2011
                              Including On-Budget and Off-Budget Transactions


                                                                                  Discretionary Spending
                                     Net                                          $1.3 Trillion
                                   Interest
                                    $227 B                                        Spending that lawmakers
                                                                                  control through appropriations
                                                   Social Security                acts
                    Defense                           $725 B
                    $700 B                                                        Mandatory Spending
                                                                                  $2.0 Trillion
                                                                                  Spending (primarily on benefit
                                                                Medicaid
                                                                 $275 B
                                                                                  programs) controlled by laws
                                                                                  other than appropriations acts

                                                                                  Net Interest
                   Nondefense
                                                           Medicare               $0.2 Trillion
                     $646 B
                                                            $480 B                Interest paid on debt held by the
                                                                                  public offset by interest income
                                                                                  the government receives
                                           Other
                                          $545 B                                  TOTAL SPENDING
                                                                                  $3.6 Trillion


Note: Amounts do not total due to rounding.

Source: Congressional Budget Office chart modified by OIG.


Discretionary spending, which amounted to $1.3 trillion in 2011 or roughly one-third of
total spending, largely funds the routine operations of federal agencies, while mandatory
spending, which amounted to $2.0 trillion or nearly two-thirds of total spending, largely
funds entitlement programs.17 Except for a relatively small appropriation to the Postal
Service Fund provided in annual appropriations acts, to provide free mail for the blind
and overseas voters, Postal Service spending is mandatory and financed by Postal
Service revenue from postage and fees. This revenue is not included as part of

15
   While many mandatory spending programs, such as Social Security and Medicare, have their own funding sources,
other mandatory spending programs, such as Medicaid, do not. In these cases, funding for the program is provided in
annual appropriations acts, but funding levels effectively are determined and controlled by the legislative committees.
16
   Congressional Budget Office, The U.S. Federal Budget Infographic, December 12, 2011,
http://www.cbo.gov/doc.cfm?index=12577&type=1.
17
   U.S. government revenue totaled $2.3 trillion and included personal income taxes, corporate income taxes, payroll
taxes such as Social Security and Medicare, and other taxes. Although some programs such as Social Security have
dedicated trust funds, outflows from these funds to pay beneficiaries are included in U.S. government total spending
and inflows (for example, from payroll taxes) are included as government revenue.




                                                            3
U.S. Postal Service Office of Inspector General                                                    February 22, 2012
Budget Enforcement Procedures and the Postal Service                                               RARC-WP-12-007


U.S. government revenue; rather, it is considered offsetting collections that count
against total Postal Service spending.18 As a result, the Postal Service’s share of the
Other Mandatory Spending category in Figure 1 is only $800 million.19 This is the Postal
Service’s net cash flow in FY 2011 as measured by federal budgetary accounting.20

Different processes for budget enforcement exist to accommodate budget complexity.
One set of budget procedures has been developed to enforce discretionary spending
policies, while another set has been developed to enforce mandatory spending policies.
In this manner, the Appropriations Committees, which control discretionary spending,
and the legislative committees, which control mandatory spending, are insulated to
some degree from the consequences of action (or inaction) by each other. Although
within each process one enforcement mechanism may be particularly important (such
as PAYGO requirements for mandatory spending bills), the full processes entail several
different constraints that may come into play when legislation is considered.

Table 1 summarizes some of the major budget enforcement procedures currently in
effect. (See Appendix A for a history of budget enforcement procedures during recent
decades.) The Senate PAYGO rule prohibits consideration of direct spending or
revenue legislation that would increase or cause an on-budget deficit over the
applicable timeframes. The PAYGO rule for administrative actions was set out in a 2005
OMB memorandum.21 Agencies that have discretion over mandatory spending must
make a proposal to OMB to increase that spending.

The Statutory Pay-As-You-Go Act of 2010 (Statutory PAYGO Act) and the House Cut-
As-You-Go (CUTGO) rule are discussed in more detail below following a review of the
congressional budget process and the enforcement rules associated with it. The recent
changes to discretionary spending implemented by the Budget Control Act of 2011 are
also covered.




18
   Funds for the Postal Regulatory Commission and the U.S. Postal Service Office of Inspector General also come
from this revenue, although the spending is appropriated.
19
   Congressional Budget Office, Budget and Economic Outlook: Fiscal Years 2012 to 2022, January 2012,
http://www.cbo.gov/sites/default/files/cbofiles/attachments/01-31-2012_Outlook.pdf, p. 132.
20
   According to the corporate accounting the Postal Service uses for its own financial statements, the Postal Service
had a $5.1 billion loss in FY 2011.
21
   Office of Management and Budget, Memorandum No. M-05-13 from Joshua B. Bolten, Budget Discipline for
Agency Administrative Actions, May 23, 2005,
http://www.whitehouse.gov/sites/default/files/omb/assets/omb/memoranda/fy2005/m05-13.pdf.




                                                          4
U.S. Postal Service Office of Inspector General                                         February 22, 2012
Budget Enforcement Procedures and the Postal Service                                    RARC-WP-12-007

                         Table 1: Current Budget Enforcement Procedures

                      Enforcement        Principal      Spending          Basis of
   Procedure         Mechanism(s)       Enforcer(s)      Affected        Procedure         Duration
Congressional       Points of order    House and       On-budget       Congressional      1975-
budget process      and                Senate          spending:       Budget Act of      present
                    reconciliation     Budget          Discretionary   1974
                    process            Committees      and
                                                       mandatory
Senate PAYGO        Point of order     Senate          On-budget       Provisions in      1993-
rule                                   Budget          spending:       annual budget      present
                                       Committee       Mandatory       resolutions
PAYGO rule for      Review of          OMB             On-budget       OMB guidance       2005-
administrative      agency budget                      spending:       (Memorandum        present
actions             requests                           Mandatory       M-05-13)
PAYGO               Sequestration      President and   On-budget       Statutory Pay-     2010-
requirement                            OMB             spending:       As-You-Go Act      present
                                                       Mandatory       of 2010
House CUTGO         Point of order     House           On-budget       House Rule         2011-
rule                                   Budget          and off-        XXI, Clause 10     present
                                       Committee       budget
                                                       spending:
                                                       Mandatory
Discretionary       Sequestration      President and   On-budget       Budget Control     2011-
spending caps                          OMB             spending:       Act of 2011        present
and targets for                                        Discretionary
spending cuts                                          and
                                                       mandatory




Characteristics of the Budget Enforcement Process
Several major characteristics of budget enforcement procedures may be noted.

First, many different participants take part in the budget enforcement process. Budget
enforcement requires coordination across numerous House and Senate Committees
and with the Administration.

Second, budget enforcement is a complex activity, relying on multiple, distinct
processes that are oriented toward different goals, are based on different authorities,
and feature different participants. This complexity can cause confusion. When
legislative proposals are developed, it is not uncommon for
so much attention to be focused on avoiding complications      Budget enforcement
under one particular budget enforcement procedure that         complexity can cause
                                                               confusion.
equally important procedures are overlooked.




                                                   5
U.S. Postal Service Office of Inspector General                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                         RARC-WP-12-007


Third, change is a constant feature of the budget enforcement environment. Even within
the relatively short duration of an annual budget cycle, budget proposals may be
buffeted by unexpected developments (e.g., military conflicts and natural disasters),
severe fluctuations in the economy, and unforeseen demographic and political trends,
causing revenue and spending levels to deviate sharply from initial estimates. As part of
their response to such developments, Congress and the President not only change
budget policies, but often change budget enforcement procedures as well.

The roles and responsibilities of Congress and the President in the federal budget
process, including budget enforcement procedures, are rooted in various legal sources,
ranging from the Constitution, to federal statutes, to House and Senate rules and
practices, and to administrative directives. Thus, there are several avenues through
which budget process changes can occur. For example, either the House or Senate
may focus on changing its rules. Such a change, which requires no agreement beyond
the chamber itself, minimizes the time needed and the scale of potential conflict, but at
the same time it may reduce the impact of the changes. Broader and potentially more
consequential changes, involving statutes or constitutional amendments, may entail a
                             larger set of participants in the decision-making (i.e., the
 There are several
 avenues through             other chamber, the President, state legislatures), likely
 which budget process        escalating the effort required to reach agreement and
 changes can occur.          lengthening the time period before the changes take effect.

Legislative changes in the budget process may take the form of freestanding bills or
joint resolutions (e.g., the Line Item Veto Act), or may be incorporated into other
budgetary legislation, such as acts raising the debt limit (e.g., the Gramm-Rudman-
Hollings Act), acts implementing reconciliation instructions (e.g., the Budget
Enforcement Act of 1990), or acts providing annual appropriations (e.g., “deeming
resolution” provisions making revisions in the Senate’s cap on discretionary
appropriations). Budget process changes also may be included in annual budget
resolutions or in simple House or Senate resolutions.

Fourth, a great deal of activity is compressed into the annual budget cycle. The number
of legislative proposals vying for space on the legislative agenda typically far exceeds
the available openings. Oftentimes, there is not sufficient opportunity to thoroughly
resolve complicated or controversial enforcement issues, so short-term fixes may be
employed, causing larger problems to carry over unresolved into subsequent years.
This fate is particularly likely to befall issues where political support is disorganized or
weak.

Fifth, control over the budget may be only one of several competing values when
significant enforcement issues are confronted. Spending may be increased or revenues
reduced, thereby increasing the deficit and debt levels well beyond what otherwise
would be acceptable, when it is necessary to take strong action for other motivations
(such as to stimulate the economy out of a recession, mitigate the human suffering that
arises from a natural disaster or economic downturn, or engage in military conflict to
protect the nation).



                                                  6
U.S. Postal Service Office of Inspector General                                                   February 22, 2012
Budget Enforcement Procedures and the Postal Service                                              RARC-WP-12-007


Sixth, and finally, the operation of budget enforcement procedures is inundated by
political considerations. For example, the ability to take advantage of “safety valves” in
such procedures, in order to allow consideration of a measure that violates the budget
plan, often is determined by the political support behind the measure. Budget rules may
be waived to allow the consideration of a stimulus measure costing hundreds of billions
of dollars, while at the same time they may be invoked to prevent the consideration of a
measure costing only millions of dollars. The difference may be that the former is
viewed by solid majorities in each chamber as a crucial response to severe economic
recession that enjoys wide public support, while the latter suffers from a distinct lack of
support.

In the arena of budget enforcement, the most successful participants are those that
recognize it is a competitive, political
environment. Instead of viewing themselves      The most successful participants
as a “special case” and expecting preferential  develop a legislative strategy,
treatment as a matter of course, they develop   organize political support, and
a legislative strategy, organize political      engage the key participants in the
                                                process.
support, and engage the key participants in
the process.


Enforcement Procedures under the Congressional Budget Act of 1974
The Congressional Budget and Impoundment Control Act of 1974 established the
congressional budget process, which is used to develop and enforce an annual budget
plan.22 A timeline of the schedule called for in the Act appears in Table 2, and a
simplified diagram of the process appears in Figure 2.23 The process starts with the
President’s budget submission. For Congress, it centers in large part on the budget
resolution.




22
   The enforcement procedures addressed stem largely from Title III (The Congressional Budget Process) of the
Congressional Budget Act of 1974, Public Law 93-344 (July 12, 1974; 2 U.S.C. § 601 et seq.). Titles I-IX are referred
to separately as the Congressional Budget Act of 1974, and Title X is referred to separately as the Impoundment
Control Act of 1974.
23
   Table 2 is from Congressional Research Service, The Congressional Budget Process Timetable, by Bill Heniff, Jr.,
Report No. 98-472, March 20, 2008, accessed at http://www.senate.gov/reference/resources/pdf/98-472.pdf, p. 1.
The table is ultimately from Section 300 of the Congressional Budget Act of 1974 as amended (2 U.S.C. § 631).
Figure 2 is modified from Government Accountability Office, A Glossary of Terms Used in the Federal Budget
Process, Report No. GAO-05-734SP, September 2005, http://www.gao.gov/new.items/d05734sp.pdf, pp. 118-119.




                                                          7
U.S. Postal Service Office of Inspector General                                           February 22, 2012
Budget Enforcement Procedures and the Postal Service                                      RARC-WP-12-007

                                 Table 2: Timeline for Budget Process

Due Date                        Event
First Monday in February        President submits budget to Congress.
February 15                     CBO submits economic and budget outlook report (baseline) to Budget
                                Committees.
Six weeks after President       Committees submit views and estimates to Budget Committees.
submits budget
April 1                         Senate Budget Committee reports budget resolution.
April 15                        Congress completes action on budget resolution. (In the conference
                                report of the budget resolution, Congress is required to allocate spending
                                to each committee. The Appropriations Committees must further allocate
                                these amounts to their subcommittees.)
May 15                          Annual appropriations bills may be considered in the House, even if
                                action on the budget resolution has not been completed.
June 10                         House Appropriations Committee reports last annual appropriations bill.
June 15                         House completes action on annual appropriations bills.
June 15                         Congress completes action on reconciliation legislation (if required by
                                budget resolution).
July 15                         President submits mid-session review of his budget to Congress.
October 1                       Fiscal year begins.

Source: Congressional Research Service, The Congressional Budget Process Timetable.




The Budget Resolution

Under the 1974 Act, the House and Senate are required to reach agreement each year
on a budget plan in the form of a concurrent resolution on the budget, referred to
informally as a “budget resolution.” As a concurrent resolution, the budget resolution is
not sent to the President for his approval and thus cannot become law.

The budget resolution sets forth the appropriate fiscal and budgetary policy in broad
terms for a multiyear period, beginning with the upcoming fiscal year (that starts on
 The budget resolution        October 1 during the congressional session). It serves as
 serves as an internal        an internal blueprint for Congress regarding overall budget
 blueprint for Congress       policy, coordinating and guiding the subsequent
 regarding budget policy.     consideration of revenue, spending, and debt-limit
                              legislation produced by the other House and Senate
committees. Unlike a budget resolution, these measures become law upon approval by
the President or fail upon his veto (unless overridden by Congress).




                                                      8
U.S. Postal Service Office of Inspector General                                                     February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                RARC-WP-12-007

                                          Figure 2: Budget Process



                                                President Submits
                                                     Budget



                                                Budget Committees
                                                Prepare Resolution


                                                                               Appropriations
                                                House and Senate
                                                                             Committees Allocate
                                                  Pass Budget                   Spending to
                                                   Resolution                  Subcommittees


                   Other Committees             Budget Committees             Appropriations
                   Prepare Mandatory                Prepare                   Subcommittees
                     Spending Bills              Reconciliation Bill           Prepare Bills


                    House and Senate            House and Senate             House and Senate
                     Pass Mandatory                  Pass                          Pass
                      Spending Bills            Reconciliation Bill          Appropriations Bills


                                                     President
                                                  Signs or Vetoes              Congress Can
                                                    Legislation                Override Veto


Note: The other legislative committees also authorize discretionary spending by setting out the programs federal
      agencies should undertake and the amount of money authorized to pay for them. The final amount
      appropriated, however, is determined through the appropriations process.

Source: Government Accountability Office, Budget Glossary, chart modified by the OIG.


The 1974 Act established the House and Senate Budget Committees, with jurisdiction
over budget resolutions, and created the nonpartisan Congressional Budget Office
(CBO), charged with providing the House and Senate with objective budgetary
information and analysis.

This year, which centers on the budget cycle for FY 2013, marks the 38th year that the
congressional budget process has been in effect.24 The process, however, is not always
completed successfully. The House and the Senate did not agree on a budget
resolution for FY 2011 or FY 2012. Appropriations were made through a series of
continuing resolutions for all of FY 2011. In FY 2012, after several continuing

24
  The procedures under the 1974 Act were implemented on a “dry run” basis in 1975 for FY 1976 and were fully
implemented in 1976 for FY 1977.




                                                         9
U.S. Postal Service Office of Inspector General                                                       February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                  RARC-WP-12-007


resolutions, the appropriations bills were consolidated into larger bills and successfully
passed.

Content of the Budget Resolution

How budget enforcement procedures operate is determined in part by the content of the
budget resolution. The budget resolution is required to include the following elements:25

          Total spending as both new budget authority and outlays (budget authority
           describes how much Congress permits an agency to commit, and outlays
           describe how much is actually expected to be spent in a year),
          Total revenues and the amount that revenues should be changed by legislative
           action,
          The deficit or surplus, and
          The level of debt subject to limit.

In addition, total spending is distributed by 20 or so major functional categories, such as
National Defense (050), International Affairs (150), Energy (270), Transportation (400),
and Health (550), but these allocations are not used for budget enforcement purposes.

Optional elements in a budget resolution may include reconciliation directives (see
discussion below), procedural provisions, informational elements, and various other
matters. Procedural provisions and informational elements may be included under the
so-called elastic clause of the 1974 Act, which states that the budget resolution may
“set forth such other matters, and require such other procedures, relating to the budget,
as may be appropriate to carry out the purposes of this Act.”26 While the elastic clause
does not grant unlimited flexibility, it has been used over the years to include a variety of
enforcement procedures and other matters. For example, language in the budget
resolution has allowed Congress to use reconciliation procedures earlier in the process
than called for by the 1974 Act.

As a general matter, budget resolutions have become lengthier and more complex
measures over the years, evolving from one or two pages to measures that are well
over 50 pages long and are divided into separate titles. Much of the additional length is
attributable to policy statements, provisions included       Budget resolutions
under the elastic clause, such as reserve funds to set       have become lengthier
aside funds that can be released to committees if needed, and more complex over
and precatory statements, which express the sense of the     the years.
House, the Senate, or Congress on a matter.

Budget levels set forth in the text of the budget resolution exclude the revenues and
spending of the off-budget entities, the Postal Service Fund, and the two Social Security

25
     Section 301 (2 U.S.C. § 632) of the 1974 Act sets forth the required and optional contents of a budget resolution.
26
     Section 301(b)(4).




                                                            10
U.S. Postal Service Office of Inspector General                                                     February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                RARC-WP-12-007


trust funds (the Old-Age and Survivors Insurance Trust Fund and the Disability
Insurance Trust Fund). However, the committee reports accompanying the budget
resolution, and discussions regarding the budget resolution, generally adhere to the
“unified budget” approach in which off-budget transactions are included.27

While the aggregate budgetary levels specified in the budget resolution are important,
they do not provide a sufficient basis for enforcing spending policies. Accordingly, the
1974 Act requires that spending allocations for each House and Senate committee be
included in the joint explanatory statement accompanying the conference report on a
budget resolution.28 It further requires that the House and Senate Appropriations
Committees subdivide their spending allocations by subcommittee. Enforcement actions
thus extend to the committee level, and in the case of discretionary spending, to the
subcommittee level.

The Mechanisms of Enforcement: Points of Order and the Reconciliation Process

Budget resolutions are enforced by two mechanisms — points of order and the
reconciliation process. Points of order are established by various provisions of the
1974 Act, mainly in Title III. They may apply to any legislation that meets the criteria
established in the point-of-order provisions. The reconciliation process, on the other
hand, is an optional procedure. It is invoked whenever a budget resolution includes
reconciliation directives to House and Senate committees.

Points of Order
In the legislative process, a point of order generally is a parliamentary objection raised
by a member of Congress to an action, such as the consideration of a bill or the offering
                                   of an amendment, on the ground that such action
 A point of order generally is     violates a rule of the chamber. When a point of order is
 a parliamentary objection         raised in the House or Senate, the presiding officer (the
 that an action violates a rule
                                   “Chair”) of that chamber either sustains or overrules it.
 of the House or the Senate.
                                   If the point of order is sustained, the action is judged to
have violated a rule and a sanction is applied. (For example, a bill is not allowed to be
considered or an amendment offered to a bill falls.) If the point of order is overruled,
then the action may proceed. The ruling of the Chair may be appealed by any member
to the entire chamber; if the appeal is successful, the Chair’s ruling is overturned.




27
   For a discussion of the significance of the unified budget measure, see U.S. Postal Service Office of Inspector
General, Federal Budget Treatment of the Postal Service, Report Number ESS-WP-09-001, August 27, 2009,
http://www.uspsoig.gov/foia_files/ESS-WP-09-001.pdf
28
   Section 302 (2 U.S.C. § 633).




                                                          11
U.S. Postal Service Office of Inspector General                                                  February 22, 2012
Budget Enforcement Procedures and the Postal Service                                             RARC-WP-12-007

               Table 3: Selected Points of Order in the Congressional Budget Process

        Subject                    Source                                  Description
Appropriations                Sec. 302(f)(B)(2)   In the Senate, after a budget resolution has been agreed
Committee spending            of the 1974 Act     to, prohibits consideration of legislation from the
subdivisions                                      Appropriations Committee that would cause the applicable
                                                  suballocation of new budget authority or outlays made
                                                  pursuant to Section 302(b) to be exceeded.
Requirement for prior         Sec. 303(a) of      Prohibits consideration of legislation providing new budget
adoption of budget            the 1974 Act        authority, an increase or decrease in revenues, an
resolution                                        increase or decrease in the public debt limit, new
                                                  entitlement authority (in the Senate only), or an increase
                                                  or decrease in outlays (in the Senate only) for a fiscal year
                                                  until a concurrent resolution for that fiscal year has been
                                                  agreed to.
Budget Committee              Sec. 306 of the     Prohibits consideration of matters within the jurisdiction of
jurisdiction                  1974 Act            the House or Senate Budget Committee except when the
                                                  committee has reported the measure or the committee
                                                  has been discharged from further consideration of the
                                                  measure unless the item under consideration is an
                                                  amendment to a measure already reported or discharged
Spending ceilings and         Sec. 311(a)(1)      In the House, prohibits consideration of legislation that
revenue floors                of the 1974 Act     would cause new budget authority or outlays to exceed or
                                                  revenues to fall below the levels set forth in the budget
                                                  resolution for the first fiscal year or for the total of all fiscal
                                                  years for which allocations are made pursuant to Section
                                                  302(a).
Senate’s “Byrd Rule”          Sec. 313 of the     In the Senate, prohibits consideration of extraneous
                              1974 Act            provisions in reconciliation legislation.
Unfunded mandates             Sec. 425(a)(1)      Prohibits consideration of legislation reported by a
                              of the 1974 Act     committee unless the committee has published a
                                                  statement by CBO on the direct costs of federal
                                                  mandates.
Emergency                     Sec. 403(e) of      In the Senate, provides for a point of order against the use
designations                  the FY 2010         of an emergency designation as allowed under Section
                              budget              403(a) of this budget resolution to provide for exemption in
                              resolution          the Senate from budget enforcement mechanisms
                                                  specified in Section 403(b).
Advance appropriations        Sec. 424(a) of      In the House, prohibits the consideration of appropriations
                              the FY 2010         for a future year, except as specified in this budget
                              budget              resolution.
                              resolution
Senate PAYGO rule             Sec. 201(a) of      In the Senate, prohibits consideration of any direct
                              the FY 2008         spending or revenue legislation that would increase or
                              budget              cause an on-budget deficit for the period of the current
                              resolution          fiscal year and the 5 ensuing fiscal years or the period of
                                                  the current fiscal year and the 10 ensuing fiscal years.

Source: Adapted from the Congressional Research Service, Points of Order in the Congressional Budget Process.




                                                      12
U.S. Postal Service Office of Inspector General                                               February 22, 2012
Budget Enforcement Procedures and the Postal Service                                          RARC-WP-12-007


The 1974 Act provides for points of order on many different grounds, which may pertain
to substantive, timing, or procedural issues. In addition, other point-of-order provisions
usually are included in the annual budget resolution. Table 3 illustrates the diversity of
point-of-order provisions by listing some from both sources.29 The House CUTGO rule
explained below is not included as it is part of the House rules and not tied to the 1974
Act or the budget resolution. As described below, a point of order was raised against the
legislation that reduced the Postal Service’s payment to the retiree health benefits fund
by $4 billion, but the point of order was subsequently waived.

Substantive points of order are intended to enforce the budget policies underlying the
budget resolution, dealing with such items as the total levels of spending and revenues,
the allocations of spending to committees, and other matters. A timing point of order is
aimed at preventing the consideration of revenue and spending measures for a fiscal
year until the budget resolution for that fiscal year has been adopted. Finally, other
points of order enforce certain procedural matters, such as a prohibition on the
consideration of legislation that includes changes in the congressional budget process
unless it has been reported by the House or Senate Budget Committee, as appropriate
(thus protecting that element of the Committees’ jurisdiction).

Enforcement by point of order is not automatic. A point of order must be raised by a
member in order to come into play and must be sustained to have an effect on
legislative proceedings. A point of order, or multiple
                                                         A point of order must be
points of order, can be waived by an appropriate         raised by a member and
majority of members. In the Senate (but not the          sustained to have an effect
House), most points of order for budget                  on proceedings.
enforcement purposes require an extraordinary
majority to be waived (and for the Chair’s ruling to be overturned on appeal); the
threshold in these cases is three-fifths of the entire membership, which is 60 senators, if
no seats are vacant.

The Reconciliation Process
The budget reconciliation process is an optional procedure that operates as an adjunct
to the budget resolution process established by the Congressional Budget Act of 1974.
                                   (See Appendix B for more information.) It allows
 The chief purpose of the
                                   consideration of a bill with limited debate. The chief
 reconciliation process is to
 enhance Congress’s ability to     purpose of the reconciliation process is to enhance
 bring revenue, spending, and      Congress’s ability to change current law in order to
 debt-limit levels into conformity bring revenue, spending, and debt-limit levels into
 with the budget resolution.       conformity with the policies of the annual budget
                                   resolution. With regard to spending, reconciliation is
used almost exclusively to change mandatory spending levels, not discretionary
spending levels.

29
  The table is adapted from Congressional Research Service, Points of Order in the Congressional Budget Process,
by James V. Saturno, Report No. 97-865, March 7, 2011.




                                                       13
U.S. Postal Service Office of Inspector General                               February 22, 2012
Budget Enforcement Procedures and the Postal Service                          RARC-WP-12-007


The purpose for which the reconciliation process can be used has been a controversial
matter over the years. At first (during the 1980s), the process was used as a deficit-
reduction tool. Toward the late 1990s, Congress began to use reconciliation procedures
as a means of thwarting possible Senate filibusters against tax-cut legislation. Most
recently, reconciliation procedures were used to make budgetary and other adjustments
in pending health care and education reform legislation, in part to avoid the need for
further Senate action on the reform measure it had passed previously.

Several features of the reconciliation process, including its expedited procedures for
considering legislation, its ability to coordinate the legislative actions of various House
and Senate committees through the mechanism of an omnibus bill, and the “political
cover” that the exercise affords members, have resulted in some reconciliation
measures being the signature budgetary legislation of the year and the vehicle for
implementing budget summit agreements between Congress and the President.

Although reconciliation more often than not has had a significant deficit-reduction
character, the “bottom-line” approach to gauging its budgetary effects has allowed many
“sweetener” provisions (i.e., provisions entailing costs) to be included among the many
provisions producing savings while retaining the overall deficit-reduction impact of the
legislation.

Other Elements of Enforcement: The Baseline, Cost Estimates, and
Scorekeeping

In order for budget enforcement to occur when legislation is considered, three
interconnected sets of activities must take place. These activities involve constructing
the budget baseline, preparing cost estimates, and scorekeeping. They continue to
operate even if Congress fails to pass a budget resolution or a budget. Each of these
three sets of activities is discussed in more detail below.
                                Figure 3: Elements of Scorekeeping




                                        Estimate Cost
            Set                                                          Keep
                                         of Proposed
          Baseline                                                     Scorecard
                                          Changes

      CBO sets baseline                CBO issues cost               Budget Committees
      in January and                   estimates for every           and OMB maintain
      updates during                   bill reported by a            a scorekeeping
      year.                            House or Senate               system.
                                       committee.




                                                 14
U.S. Postal Service Office of Inspector General                                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                                         RARC-WP-12-007


The Baseline
The first step taken in the annual budget cycle is the preparation of baseline budget
projections (the “baseline”) by CBO, which are included in a report, The Budget and
Economic Outlook, usually issued in January. CBO revises the baseline in March as the
Budget Committees begin to formulate the budget resolution for the upcoming fiscal
year. Finally, CBO revises the baseline again during the summer to account for
changed economic and technical assumptions and legislation enacted in the interim.
Figure 4 shows the summary table from the most recent budget baseline released by
CBO.30 The off-budget totals include the net inflows to the Social Security trust funds
and the net cash flow of the Postal Service. An off-budget surplus is projected until
2019.

                           Figure 4: Budget Baseline for FY 2012 to FY 2022




Source: Congressional Budget Office, The Budget and Economic Outlook: Fiscal Years 2012 to 2022.


The baseline is a projection of current revenue and spending levels based upon existing
law and policy. As such, it offers members an understanding of the status quo and what
future budgets would look like without any policy changes, and a neutral benchmark
against which policy proposals can be measured.

30
   Congressional Budget Office, The Budget and Economic Outlook: Fiscal Years 2012 to 2022, January 2011,
http://www.cbo.gov/sites/default/files/cbofiles/attachments/01-31-2012_Outlook.pdf, p. XII.




                                                      15
U.S. Postal Service Office of Inspector General                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                        RARC-WP-12-007


CBO constructs the baseline by carefully adhering to a      The baseline offers a
prescribed methodology based upon a blend of long-          neutral benchmark against
standing conventions and specific legal requirements.       which policy proposals
The report of the 1967 President’s Commission on            can be measured.
Budget Concepts is a foundational document. In
addition, CBO follows methodologies specifically prescribed in law and derived from
other sources. Section 257 of the Balanced Budget and Emergency Deficit Control Act
of 1985 (as amended), for example, sets forth rules for the construction of the baseline
that was used in the sequestration process, which enforced the statutory discretionary
spending limits and PAYGO requirement in effect through 2002.31 During that period,
CBO employed these methodologies for the construction of its baseline generally, and it
continues to use them for that purpose on the ground that they are the most recent
expression of congressional intent. Modifications to the baseline approach generally
involve a collaborative approach in which the interests of various stakeholders, including
CBO, the House and Senate Budget Committees, and others are represented.

Baseline projections also rely on economic and technical assumptions such as the rate
of growth in Gross Domestic Product and the number of new beneficiaries in the
Medicare program. In this area, CBO exercises its independence and provides its own
judgments.

The end result of this process is intended to be a baseline that reflects objectivity and
nonpartisanship but also meets the needs of policymakers and facilitates informed and
effective budgeting. As laudable as CBO’s endeavors in this area may be, the agency is
criticized by some for deficiencies in its baseline projections. CBO is quick to
acknowledge the criticisms, but points out that certain deficiencies are forced on the
agency by the rigid requirement that it adhere to particular legal specifications regarding
the methodological approach. Absent a clear consensus in the House and Senate about
how to modify an approach, CBO maintains that it has no choice but to follow the
existing law or its most recent expression. CBO attempts to mitigate the concerns by
including in its reports “alternative scenarios” in which baseline methodologies are
modified in various ways, consistent with assumptions favored by large numbers of
members.

Cost Estimates
In order to enforce the budget resolution when individual revenue and spending bills are
considered, the budgetary impact of the legislation must be known. CBO assists this
                                  effort by preparing multiyear cost estimates for every
 CBO prepares multiyear cost      public bill and joint resolution reported by a House or
 estimates for every public
                                  Senate committee. For legislation affecting revenues,
 bill and joint resolution
 reported by a House or           CBO is required by Section 201(f) of the 1974 Act to
 Senate committee.                use the estimates of revenue effects made by the Joint


31
     2 U.S.C. § 907.




                                                 16
U.S. Postal Service Office of Inspector General                                                 February 22, 2012
Budget Enforcement Procedures and the Postal Service                                            RARC-WP-12-007


Committee on Taxation.32 The preparation of a cost estimate for a measure is
colloquially referred to as “scoring” the bill and the cost estimate itself is referred to as
the “score.” Figure 5 shows the summary table from a recent CBO cost estimate for
S. 1789.33
                                 Figure 5: CBO Cost Estimate for S. 1789




Source: Congressional Budget Office, Cost Estimate for S. 1789, 21st Century Postal Service Act of 2011.


The cost estimate includes both the on-budget and off-budget effects of the proposed
legislation on direct or mandatory spending. The on-budget effects reflect changes in
the flow of funds to on-budget accounts such as the transfer of the Federal Employees’
Retirement System (FERS) surplus from the on-budget Civil Service Retirement and
Disability Fund to the Postal Service and a reduction in required payments for retiree
health benefits. Detailed tables within the cost estimate break out the individual effects.
Over 11 years CBO has estimated that S. 1789 will increase the on-budget deficit by
$31.9 billion.


32
  2 U.S.C. § 601(f).
33
  Congressional Budget Office, Cost Estimate for S. 1789, 21st Century Postal Service Act of 2011, January 26,
2011, http://www.cbo.gov/sites/default/files/cbofiles/attachments/s1789a.pdf, p. 1.




                                                        17
U.S. Postal Service Office of Inspector General                                 February 22, 2012
Budget Enforcement Procedures and the Postal Service                            RARC-WP-12-007


In contrast, the off-budget effects are positive, showing a decrease in off-budget
spending of $25.6 billion. They include both the savings from paying less to on-budget
accounts and the effect of cost reductions such as 5-day delivery on the Postal
Service’s net cash flow.

The bill also has minor effects on appropriated spending and federal revenue. The
revenue changes do not refer to postal revenue, which is not categorized as federal
revenue, but rather to the loss of on-budget federal revenue from reduced contributions
for employee pensions.

An important element of scoring legislation is timing. For years, CBO was required to
prepare estimates covering 5 fiscal years (the upcoming fiscal year, referred to as the
“budget year,” and the ensuing 4 fiscal years, referred to as “outyears”), which matches
the minimum period that budget resolutions must cover. As the interest in longer-term
budget control increased, and as the time horizon for some budget resolutions and
associated enforcement procedures lengthened, CBO moved to 10-year estimates. In
many instances, revised estimates for the fiscal year already underway (the “current
year”) are provided as well, thus resulting in 11-year estimates like the one shown
above.

Another aspect of timing that is taken into account in cost estimates is the assumption
regarding the effective date of legislation. As the first fiscal year in which the legislation
takes effect draws to a close, the budgetary impacts potentially become much smaller.
There is little time to change revenue or spending plans.

In addition to scoring the direct budgetary effects of a measure, CBO also will calculate
                                     the indirect budgetary effects caused by behavioral
  Behavioral assumptions
  affect cost estimates.             changes. As a general rule, CBO relies on “evidence-
                                     based” assumptions about behavior, although
evidence for behavioral changes may not always be available. In its costs estimate for
S. 1789, for example, CBO assumed that reducing the Postal Service’s prefunding
payments for retiree health and returning its FERS surplus would cause the agency’s
cost-cutting efforts to slacken off of by about half. CBO consequently reduced its
off-budget estimate of savings from those changes by 50 percent. CBO also used
assumptions of the Postal Service’s behavior to reduce the cost savings from adopting
5-day delivery in the later years of the scoring period. CBO assumed the Postal Service
would not allow large surpluses to develop during this period but instead would use
some of the 5-day delivery savings to fund spending or delay rate increases.

How a revenue or spending program is treated in the baseline may have a significant
impact on how it is scored. The baseline methodology prescribed in Section 257 of the
1985 Act, for example, requires that certain
mandatory spending programs with outlays greater     How a revenue or spending
                                                     program is treated in the
than $50 million in the current year be assumed to
                                                     baseline may have a
continue, even if the law includes an expiration     significant impact on how it
date. Although the score for a measure extending a   is scored.
program past its scheduled expiration date typically


                                                 18
U.S. Postal Service Office of Inspector General                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                         RARC-WP-12-007


would show costs for the years for which the program was extended, under this special
baseline rule, the score for such legislation would not show any cost in those years
(assuming that the legislation extends the program at baseline levels).

The Postal Service is required to pay $11.1 billion in FY 2012 to the Postal Service
Retiree Health Benefits Fund; however, since CBO does not expect the Postal Service
to be able to pay more than $2.1 billion, the baseline spending assumption is set at this
amount. As a result, legislation reducing the payment as low as $2.1 billion will not
score as affecting FY 2012 spending. The Postal Service’s inability to pay the full
$11.1 billion is already incorporated in the baseline.

Scorekeeping
The final element necessary to enforce the policies of the budget resolution is a
scorekeeping system that keeps a tally of the cumulative budgetary effects of all of the
legislation passed by the House and Senate during a budget cycle (which extends over
two consecutive sessions of Congress). The House and Senate Budget Committees
each maintain a scorekeeping system for their own chamber. From time to time during a
                              session, as the pace of legislative activity dictates, the
 The final element
 necessary to enforce the     chairmen   of the Budget Committees insert scorekeeping
 policies of the budget       reports into the Congressional Record. (OMB also
 resolution is a              maintains scorecards under the Statutory Pay-as-You-Go
 scorekeeping system.         Act as described below.)

When a mandatory spending bill is considered in the House or Senate, for example, the
cost of the measure is provided in the CBO cost estimate. The scorekeeping system
allows the Budget Committee in that chamber to advise the membership on how the
cost of the bill adds to or subtracts from the spending total that has accrued at that point
in the session for all of the pertinent spending bills previously passed by the chamber. In
this manner, the membership knows how much room still is available, if any, under the
spending ceilings established in the budget resolution, or if they already have been
exceeded. In addition, the scorekeeping systems apprise the membership of how much
room may be available under the committee’s spending allocation that was provided in
the joint explanatory statement.

The information generated by the cost estimate and the scorekeeping system alerts the
membership to which points of order, if any, may apply during the consideration of the
measure. Committees routinely consult the Budget
                                                       The information generated by
Committees in their chamber as legislation is being
                                                       the cost estimate and
developed in order to avoid budgetary violations, if   scorekeeping system alerts the
possible, in the reported bills.                       membership to which points of
                                                          order may apply.
Budget resolutions may provide for subsequent
adjustments in its budgetary levels, amounting to several billion dollars or more, through
such mechanisms as reserve funds and program integrity adjustments. A reserve fund,
for example, may authorize a committee’s spending allocation to be increased to
accommodate a legislative initiative reported by that committee, so long as the


                                                 19
U.S. Postal Service Office of Inspector General                               February 22, 2012
Budget Enforcement Procedures and the Postal Service                          RARC-WP-12-007


legislation contains offsets that result in deficit neutrality. As any authorized adjustments
in budget resolution levels are made, they are incorporated into the scorekeeping
system.


Enforcement Procedures under Other Authorities
The House and Senate have augmented the enforcement procedures under the
Congressional Budget Act of 1974 from time to time with additional enforcement
procedures established under other authorities. Some enforcement procedures
currently in effect include the Statutory PAYGO Act of 2010, House CUTGO rule, and
the Budget Control Act of 2011.

Statutory PAYGO Act of 2010

At the present time, the Statutory PAYGO Act is perhaps the most significant source of
additional enforcement procedures (see Appendix C). In general, the 2010 Act imposes
a deficit-neutrality requirement with respect to the enactment of revenue and mandatory
spending legislation.

     Under the Statutory
                                 Under the Statutory PAYGO Act, the budgetary effects
     PAYGO only the on-          of revenue and mandatory spending provisions enacted
     budget effects of           into law, including both costs and savings, are recorded
     legislation are counted.    by the OMB on two PAYGO scorecards covering rolling
                                 5-year and 10-year periods. For the most part, the
budgetary effects are determined by CBO cost estimates. Only the on-budget effects of
legislation are counted, but this can significantly affect the Postal Service if its
contributions to the on-budget retirement and retiree health benefit funds are affected.

Shortly after the end of a congressional session, the OMB director finalizes the PAYGO
scorecards. If he determines that a PAYGO violation has occurred (by virtue of the
existence of a cost, referred to as a “debit,” on either scorecard), then the President
issues a sequestration order that implements largely across-the-board cuts in
nonexempt mandatory spending programs sufficient to remedy the violation by
eliminating the debit. Many mandatory spending programs and activities are exempt
from sequestration including the Postal Service Fund and its pension and retiree health
accounts. If no PAYGO violation is found, no further action occurs and the process is
repeated during the next session.

The current statutory PAYGO process represents the reinstitution, with significant
changes, of the statutory PAYGO process established under the Budget Enforcement
Act of 1990 that operated until late 2002.34 As with the earlier statutory process, the new
statutory process shifts considerable responsibility for budget enforcement to the


34
     Public Law 101-508, November 5, 1990.




                                                 20
U.S. Postal Service Office of Inspector General                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                         RARC-WP-12-007


President and OMB director. Congress has retained greater control over the new
process, however, in large measure by providing for the use of CBO cost estimates.

House CUTGO Rule

The Senate established a PAYGO rule in 1993 (as a provision in the FY1994 budget
resolution) to supplement the statutory PAYGO process then in effect. The Senate rule,
which has been implemented as part of the budget resolution, remains in effect but has
been revised several times. The House established its own PAYGO rule in 2007, but
chose to incorporate it into its standing rules rather than to include it in a budget
resolution. At that time, the House and Senate PAYGO rules, both established by
Democratic majorities, were similar in design, except that the Senate rule covered only
on-budget transactions while the House rule covered off-budget transactions as well.
Both rules covered two timeframes, a 5-year and a 10-year period, plus the current
year.

At the beginning of 2011, the new Republican majority in the House replaced the
PAYGO rule with a “Cut-As-You-Go” rule.35 The CUTGO rule effectively establishes a
PAYGO approach only for mandatory spending, by
                                                      The CUTGO rule establishes a
barring the consideration of legislation that has the PAYGO approach only for
net effect of increasing mandatory spending over      mandatory spending.
the time periods previously used in the PAYGO         Legislation reducing revenues
rule. Legislation that has the net effect of reducing would not violate the CUTGO
revenues from taxation over these time periods        rule.
would not violate the CUTGO rule.

Under the CUTGO Rule, increased mandatory spending cannot be offset by increased
revenues from taxation. Like the PAYGO rule that it replaced, the CUTGO rule covers
off-budget as well as on-budget transactions. Accordingly, the rule would apply to any
budgetary legislation affecting the Postal Service, even if it had only off-budget effects.
For example, legislation that required the Postal Service to increase its level of service
could show as increasing the off-budget deficit and would be vulnerable to the CUTGO
rule.

Budget Control Act of 2011

In 2011 concern about the national debt level led to heated debate about budgetary
issues such as extending spending authority to the government and raising the national
debt ceiling. On August 2, 2011, Congress enacted the Budget Control Act (BCA) of
2011 as a result of negotiations to lift the debt ceiling.36 The BCA imposes caps on




35
     Clause 10 of Rule XXI.
36
     Public Law 112-25.




                                                 21
U.S. Postal Service Office of Inspector General                                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                                         RARC-WP-12-007


discretionary spending through 2021. The CBO has estimated that these caps will
reduce spending by approximately $900 billion over the entire period.37

The law also empowered a new committee officially called the Congressional Joint
Select Committee on Deficit Reduction but known informally as the Supercommittee to
find $1.5 trillion in deficit cuts from FY 2012 through FY 2021. Under the BCA, unless
$1.2 trillion in cuts were enacted by January 15, 2012, automatic spending cuts
enforced through sequestration would be triggered in both discretionary and mandatory
spending starting in FY 2013. The automatic cuts were structured to fall equally on
defense and nondefense spending in order to encourage negotiations on alternatives.
Since the Supercommittee failed to reach agreement on a deficit proposal and no cuts
were enacted by the January 15, 2012, deadline, the automatic spending cuts are
scheduled to take effect unless new legislation intervenes. The Postal Service is not
directly affected by the BCA. Any accounts exempt from sequestration in the Statutory
PAYGO Act, including the Postal Service Fund, are exempt. The threat of the looming
cuts, however, will be a significant congressional concern in 2012 and could make the
budgetary environment more challenging for postal legislation.


Excluding Legislation from Budget Controls
Budget controls can be avoided — that is, set aside or modified so that they do not have
effect — under certain circumstances during the consideration of legislation by the
                              House or Senate or during the implementation of statutory
Budget controls can be
                              controls by the President. The exclusion of some matters is
set aside or modified.
                              contemplated and provided for by budget enforcement
procedures. In other cases, the exemption of some matters from enforcement occurs by
virtue of an intervention in the established procedures.

Before the issue of exclusion on a case-by-case basis is explored, it should be noted
that some areas of the budget are excluded from enforcement procedures by design.
Transactions of the Postal Service Fund and the Social Security trust funds, as
off-budget entities, generally are not covered under the budget enforcement procedures
of the Congressional Budget Act of 1974 or the Statutory PAYGO Act of 2010. Also,
legislation dealing with particular policy areas, such
                                                          Transactions of the Postal
as the extension of expiring tax cuts under 2001 and      Service Fund and Social Security
2003 reconciliation acts, short-term “patches” to         trust funds as off-budget entities
coverage under the Alternative Minimum Tax, and           are not covered under the
adjustments to Medicare reimbursement fees to             Congressional Budget Act of
physicians ("Doc Fix”) have been excluded from            1974 or the Statutory PAYGO Act
enforcement procedures under these two acts, within       of 2010.
specified constraints.


37
  Congressional Budget Office, Estimated Impact of Automatic Budget Enforcement Procedures Specified in the
Budget Control Act, September 12, 2012, http://www.cbo.gov/sites/default/files/cbofiles/attachments/09-12-
BudgetControlAct.pdf.




                                                      22
U.S. Postal Service Office of Inspector General                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                        RARC-WP-12-007


In the case of enforcement based on points of order, as stated previously, enforcement
does not occur unless a member raises the applicable point of order. In order for a
potential violation to be stopped, a member must successfully raise a point of order and
it must be sustained if challenged. The membership of a chamber can decide
collectively not to activate budget enforcement procedures during the consideration of a
measure potentially in violation of them by all agreeing not to raise a point of order.
Understandably, this situation usually occurs when there is little, if any, controversy
associated with the legislation, often owing to its negligible or minor budgetary effects.

The Congressional Budget Act of 1974 provides explicitly for the waiver in the Senate of
any of its various point-of-order provisions. The principal means of doing so is a waiver
motion, authorized under Section 904 of the Act,
that any member can offer.38 As noted before,         The 1974 Budget Act provides
                                                      explicitly for a waiver in the
most waiver motions (and appeals of the Chair’s
                                                      Senate of any point-of-order
rulings) under the 1974 Act require 60 votes to       provisions.
be successful in the Senate.

Further, like any other rules of the House and Senate, points of order tied to budget
enforcement rules may be waived in other ways. In the House, for example, the House
Rules Committee serves as the legislative “traffic cop” for the leadership by reporting
                              “special rules,” which are simple House resolutions that set
  Special rules often
  waive points of order.
                              the terms of consideration for selected measures. Special
                              rules often waive points of order that could be raised under
the Congressional Budget Act of 1974 or other enforcement procedures. Minor
legislation often is considered under the “suspension procedure,” under which all rules
of the House are waived so long as the measure secures an affirmative vote of at least
two-thirds of the membership. Both the House and Senate sometimes effectively waive
their rules when they consider legislation by unanimous consent.

Another device that has been used to exclude items from budget enforcement under
both the Congressional Budget Act of 1974 and the Statutory PAYGO Act of 2010 is the
inclusion of emergency designations in legislation. Under
both acts, the budgetary effects of provisions designated in    Another device is
legislation to be emergency requirements are not counted,       the inclusion of
                                                                emergency
and therefore cannot be used to trigger a point of order
                                                                designations in
against the legislation when it is considered, or to affect the legislation.
balances on the PAYGO scorecards when it is enacted.

Separate House and Senate procedures dealing with emergency designations have
been carried over the years in annual budget resolutions, and they have allowed
emergency designations to be removed from legislation by points of order. When a
successful point of order removes an emergency designation, the budgetary effects of
the provisions that had been so designated are then counted, and the provisions
become vulnerable to further points of order.

38
     2 U.S.C. § 621 note.




                                                 23
U.S. Postal Service Office of Inspector General                                                  February 22, 2012
Budget Enforcement Procedures and the Postal Service                                             RARC-WP-12-007


Section 4 of the Statutory PAYGO Act also sets forth separate House and Senate
procedures for dealing with the issue of designating provisions as emergency
requirements. In the House, the chair must “put the question of consideration” prior to
the chamber taking any action on a measure including an emergency PAYGO
designation. If the House votes affirmatively on the question, then it may proceed to
consider the measure.

In the Senate, an emergency PAYGO designation may be stricken from a measure by a
point of order. To waive the point of order, or to sustain the appeal of the ruling of the
chair on a point of order, the affirmative vote of 60 Senators must be obtained. In this
case, the point of order can be applied in a manner so that if successful, the offending
provision is stricken but the consideration of the measure (or the conference report
thereon) is not defeated.

Finally, exemptions from enforcement have occurred through            Exemptions from
extraordinary intervention in the established procedures. The         enforcement have
use of sequestration procedures in the enforcement of the             occurred through
statutory deficit targets, discretionary spending limits, and         extraordinary
PAYGO requirement, for example, was prevented in several              intervention.
instances from the late 1980s through 2002 by “directed
scorekeeping” provisions or revised limits in legislation, or was modified after the fact by
legislation that reduced the amounts of funds sequestered. Directed scorekeeping
involves directing the scorekeeper (in these cases, the OMB director) to score
legislation or an action in a manner that is different from how it would have been scored
under existing procedures. Legislation required the scorekeeper to use a particular
score for certain provisions or to reduce the scorecard. In 2002 the scorecard was
reduced to zero for FY 2002 through FY 2006 preventing the threat of sequestration.


Application of Budget Enforcement Procedures to Postal Service
Legislation

Overview

To a considerable degree, the financial operations of the Postal Service are not subject
to budget enforcement procedures that affect other federal agencies because of the
self-sustaining nature of its operations and the off-budget status of the Postal Service
Fund. The enforcement by various points of order under the Congressional Budget Act
of 1974 and annual budget resolutions generally does not apply to legislation that
involves only changes in off-budget revenues and spending.39 Further, off-budget
transactions are excluded from the scoring procedures used under the Statutory

39
   The budget resolution includes, in a separate section, Social Security revenue and spending levels solely for the
purpose of enforcing a Senate point of order aimed at preventing legislation that would reduce surpluses or increase
deficits in the trust funds. The House established an enforcement procedure with the same purpose as a freestanding
provision (Section 13302) in the Budget Enforcement Act of 1990.




                                                        24
U.S. Postal Service Office of Inspector General                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                        RARC-WP-12-007


PAYGO Act of 2010, and the Postal Service Fund (as well as the off-budget Social
Security trust funds) would not be subject to any sequestration implemented under the
Act.

 The inclusion of               Even though off-budget revenues and spending are not
 off-budget transactions        formally part of the President’s annual budget to
 is informational but may       Congress, they are presented in the unified budget totals
 have important political       presented in the budget submission. They are widely
 ramifications.                 discussed during consideration of the annual budget
                                resolution, and they are reflected in the reports of the
Budget Committees accompanying the budget resolution, and incorporated into cost
estimates prepared by CBO and the JCT. Their widespread appearance, however, does
not make them subject to enforcement procedures. The inclusion of off-budget
transactions in unified budget levels, in these cases, is purely informational but may
have important political ramifications. While these practices may influence perceptions
significantly, they do not form the basis for a point of order.

There is one important exception regarding the application of budget enforcement
procedures to off-budget transactions — the new House CUTGO rule. Like the House
PAYGO rule, which it replaced earlier in 2011, the
House CUTGO rule does not fall within the framework          The House CUTGO rule
of the Congressional Budget Act of 1974, which               does not contain an
                                                             exemption for off-budget
generally excludes off-budget transactions from
                                                             transactions.
enforcement. It also does not contain an exemption
for off-budget transactions. Accordingly, any legislation proposing a net increase in
off-budget (as well as on-budget) mandatory spending over the 6-year and 11-year time
periods specified in the rule could be subject to a point of order, unless otherwise
protected. As mentioned previously, the CUTGO rule applies fully to any budgetary
legislation affecting the Postal Service.

A significant budget enforcement problem also exists with respect to Postal Service
legislation because sizeable Postal Service budgetary transactions are connected to
on-budget accounts. Payments are made from the off-budget Postal Service Fund to
                              on-budget accounts such as the two accounts
  A significant budget        administered by the Office of Personnel Management —
  enforcement problem         the Civil Service Retirement and Disability Fund and the
  does exist with respect     Postal Service Retiree Health Benefits Fund — to cover
  to Postal Service           certain liabilities associated with employee retirement and
  legislation.                retiree health care.

As the financial situation of the Postal Service has become more pressing in recent
years, modifications have been proposed to the levels of these payments for various
reasons (e.g., to reduce overpayments). The proposed modifications also have been
viewed as a means of providing short-term “relief” and improving the Postal Service’s
immediate financial condition. To the extent that legislation dealing with these matters
would affect the flow of funds between the accounts in a way that would lead to on-
budget costs, then the procedures of the Congressional Budget Act of 1974, the


                                                 25
U.S. Postal Service Office of Inspector General                                                   February 22, 2012
Budget Enforcement Procedures and the Postal Service                                              RARC-WP-12-007


Statutory PAYGO Act of 2010, and other enforcement mechanisms would apply to the
legislation.

2009 Illustration of Enforcement Problem

An illustration of the budget enforcement problem facing the Postal Service, and the
methods used to deal with it, can be drawn by reviewing House and Senate action on
Postal Service legislation in 2009, during the 111th Congress. The illustration also
demonstrates the confusion and uncertainty regarding budget enforcement procedures
                                  that often surrounds the consideration of legislation
 An illustration of the budget    (e.g., do such procedures apply, and if so, which
 enforcement problem facing       ones?). As FY 2009 drew to a close, it was apparent
 the Postal Service               that the Postal Service was operating with a “cash
 demonstrates the confusion       shortage” in the Postal Service Fund while facing a
 and uncertainty regarding
                                  mandated $5.4 billion payment due on September 30,
 budget enforcement.
                                  2009.40

In anticipation of the need to provide budgetary relief to the Postal Service, the House
Oversight and Government Reform Committee reported H.R. 22, the United States
Postal Service Financial Relief Act of 2009, on July 21, 2009. According to the
committee:

         The legislation would provide temporary financial relief to the Postal
         Service, saving over $2 billion in operating funds each fiscal year between
         2009 and 2011. In short, the bill is intended to provide the Postal Service
         with relief from its current financial crisis.41

The CBO cost estimate on the reported bill, issued on July 20, scored it as having
on-budget costs of about $5 billion over 11 years. Figure 6 shows the estimate.42




40
   Congressional Research Service, The U.S. Postal Service’s Financial Condition: Overview and Issues for
Congress, by Kevin R. Kosar, Report No. R41024, May 18, 2011, p. 6.
41
   House Committee on Government Reform, United States Postal Service Financial Relief Act of 2009, H. Rpt. No.
111-216, July 21, 2009, http://www.gpo.gov/fdsys/pkg/CRPT-111hrpt216/pdf/CRPT-111hrpt216.pdf, p. 3.
42
   Congressional Budget Office, Cost Estimate for H.R. 22, United States Postal Service Financial Relief Act of 2009,
July 20, 2009, http://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/104xx/doc10465/hr22.pdf, p. 2.




                                                         26
U.S. Postal Service Office of Inspector General                                                      February 22, 2012
Budget Enforcement Procedures and the Postal Service                                                 RARC-WP-12-007

                    Figure 6: CBO Cost Estimate for 2009 Reduction of Prefunding Payment




Source:       Congressional Budget Office, Cost Estimate for H.R. 22, United States Postal Service Financial
              Relief Act of 2009.


The off-budget and on-budget effects would have mirrored each other except that CBO
assumed that Postal Service would use some of the reduction in its prefunding
payments to reduce its cost cutting. (The behavioral effect in 2009 was small because
the year was more than three quarters over.) Since current law calls for the amortization
of unfunded retiree health liability starting in 2017, larger costs in the first 3 years were
partially offset by savings in the later years due to increased amortization payments:

             CBO estimates that enacting the bill would result in on-budget costs of
             about $5 billion and off-budget savings of $2.5 billion over the 2009-2019
             period. (Cash flows of the Postal Service are classified as off-budget,
             while the PSRHBF [Postal Service Retiree Health Benefits Fund] is an
             on-budget account.) Combining those effects, CBO estimates that the net
             cost to the unified budget of enacting H.R. 22 would be about $2.5 billion
             over the 2010-2019 period. All of those effects reflect changes in direct
             spending. H.R. 22 would not affect revenues.43

While the CBO cost estimate also noted the off-budget and unified budget effects of the
bill, these levels were irrelevant for the budget enforcement procedures in effect at the
time, except for the House PAYGO rule. Consequently, H.R. 22 was vulnerable to
several different points of order including a point of order under the House PAYGO rule,


43
     Ibid., p. 1.




                                                            27
U.S. Postal Service Office of Inspector General                                                  February 22, 2012
Budget Enforcement Procedures and the Postal Service                                             RARC-WP-12-007


because the off-budget savings to the Postal Service were not sufficient to offset the
on-budget costs to the PSRHBF.

Concerns about the cost of the bill led to its modification by an amendment restricting
the payment reduction to only a single year (FY 2009) and providing some offsetting
savings in later years, thereby bringing the total on-budget cost over 11 years down
from about $5 billion to $2.8 billion.44 Off-budget savings that fully offset the on-budget
costs year-by-year allowed the sponsors of the measure to claim (accurately) that there
was no net cost on a unified budget basis.

The House considered the bill on September 15. Although the bill as modified by the
amendment was more acceptable politically because of its “zero score” on a unified
budget basis, it still was vulnerable to multiple
points of order because of its on-budget costs. To    Although the bill was more
deal with the points of order, the House chose to     acceptable politically because
waive them all in a single motion by considering the  of its “zero score” on a unified
bill under the “suspension procedure.” The bill was   basis, it was still vulnerable to
passed by more than the two-thirds margin needed      multiple points of order.
under the procedure, securing an affirmative vote of
388-32. (As an alternative, the House could have considered the bill under the terms of
a “special rule,” reported by the House Rules Committee, waiving applicable points of
order.)

In the Senate, the Homeland Security and Governmental Affairs Committee also began
developing Postal Service relief legislation at about the same time, S. 1507, the Postal
Service Retiree Health Benefits Funding Reform Act of 2009. Because of the on-budget
costs involved with the initial version of the bill, it potentially was subject to various
points of order that would have required 60 affirmative votes to waive.

Before the Senate committee could report the bill, however, a short-term fix for the
Postal Service’s budget problem emerged in the conference report on H.R. 2918, the
Legislative Branch Appropriations Act for FY 2010, which also included continuing
appropriations for the rest of the federal government for a short period. The bill became
Public Law 111-68 on October 1, 2009.45 Section 164 of the Act reduced the Postal
Service’s required payment to the PSRHB Fund, due on September 30, 2009, by
                                        $4 billion (effectively deferring, not cancelling, its
 The House and Senate had
                                        payment).
 different opinions as to whether
 the conference report was
 subject to points of order under
                                  The House and Senate apparently had different
 budget enforcement procedures.   opinions as to whether the conference report on
                                  H.R. 2918 was subject to any points of order
under budget enforcement procedures.

44
   See the revised cost estimate Congressional Budget Office, Cost Estimate for H.R. 22, United States Postal
Service Financial Relief Act of 2009, September 22, 2009,
http://www.cbo.gov/sites/default/files/cbofiles/ftpdocs/106xx/doc10626/hr22.pdf, p. 2.
45
   Continuing Appropriations Resolution, 2010 (123 Stat. 2053).




                                                        28
U.S. Postal Service Office of Inspector General                                              February 22, 2012
Budget Enforcement Procedures and the Postal Service                                         RARC-WP-12-007


The House considered and agreed to the conference report on September 25. The
measure was considered pursuant to a special rule (H.Res. 772) that waived all points
of order. In its report accompanying the special rule, the House Rules Committee stated
that despite the waiver, it knew of no points of order that would apply to the measure.

On September 30, during Senate consideration of the conference report, Senator Judd
Gregg, the Ranking Minority member on the Senate Budget Committee, raised a point
of order against the bill (pursuant to Section 311(a)(2) of the 1974 Act) on the ground
that the $4 billion Postal Service provision pushed the cost of the bill above the
spending ceiling set in the FY 2009 budget resolution. He indicated that two other points
of order under the 1974 Act could apply as well, but he did not specify or raise them.
Senator Bill Nelson moved pursuant to Section 904 of the 1974 Act to waive all
pertinent points of order. The waiver motion was agreed to by a vote of 61-39 (one vote
over the required 60-vote margin).

In 2010, the Senate Homeland Security and Governmental Affairs Committee reported
S. 1507, oriented toward providing the Postal Service budget relief over several fiscal
years, as did H.R. 22 before it was amended.46 The Senate took no further action on the
bill before the 111th Congress came to an end.

Options for Dealing with Future Budget Enforcement Issues

In his FY 2012 budget, President Barack Obama proposed further financial relief for the
Postal Service in a manner that again would incur on-budget costs. Bills have also been
proposed in the House and Senate. In deciding whether to pursue legislation
embodying the President’s proposal or other approaches, the House and Senate have
several options regarding how to deal with potential budget enforcement issues arising
from on-budget costs.

The basic choice is among (1) using options available under existing budget
enforcement procedures, an approach that might be called the “regular order”;
(2) pursuing an “extraordinary intervention” in the procedures (but not revising them); or
(3) fundamentally restructuring the procedures altogether.

Using the regular order to accommodate Postal
                                                      The basic choice for dealing with
Service legislation that would incur on-budget        potential budget enforcement
costs (or even off-budget costs, under the            issues is among using the
House CUTGO rule) has proven successful in            regular order, extraordinary
the past, as shown in the 2009 illustration. In       intervention, or fundamental
situations involving conflict, the principal tools in restructuring.
the House have been waivers granted in special
rules reported by the House Rules Committee and by means of the suspension
procedure, which requires a two-thirds vote; in the Senate, the chief tool has been the
46
  Senate Committee on Homeland Security and Governmental Affairs, Postal Service Retiree Health Benefits
Funding Reform Act of 2009, S. Rpt. No. 111-203, June 9, 2010, http://www.gpo.gov/fdsys/pkg/CRPT-
111srpt203/pdf/CRPT-111srpt203.pdf.




                                                      29
U.S. Postal Service Office of Inspector General                               February 22, 2012
Budget Enforcement Procedures and the Postal Service                          RARC-WP-12-007


waiver motion under Section 904 of the 1974 Act. The main drawback to using the
regular order is that it usually does not provide a permanent or long-term resolution of
an issue, and must be followed year after year.

Other elements of the existing enforcement system are less likely to afford opportunities
to ease budget controls. Baseline methodology is relatively fixed by statute and
convention, and meaningful changes typically occur only through a collaborative
process. Within the existing framework, there seems to be little room for changes in this
area. While procedures for the preparation of cost estimates also are well established,
CBO’s use of behavioral assumptions and reliance on evidence-based considerations
may offer more flexibility. For example, CBO’s practice of assuming that Postal Service
cost-cutting efforts will slacken off if relief for retirement or health care payments is
granted can be challenged if evidence can be presented that this did not occur in
previous instances.

Another possibility may arise under regular order if the budget reconciliation process is
activated. Provisions incurring Postal Service costs could be folded into an omnibus
reconciliation act, in effect being “paid for” by savings made in other policy areas, or part
of a large compromise, in which the score of a particular provision is less important than
the overall success of the legislation.

The other two approaches, extraordinary interventions and fundamental restructuring,
potentially offer greater rewards but are more difficult to accomplish and may entail
                                   more political risks. Procedural restructuring is more
 Extraordinary intervention        likely to occur as a procedural provision included in
 and fundamental
                                   the annual budget resolution rather than as a separate
 restructuring offer greater
 rewards but are more difficult    bill, largely because enacting a bill is more difficult and
 to accomplish and may entail      complicated than reaching internal congressional
 more political risks.             agreement on a concurrent resolution.

President Obama’s restructuring proposal announced in September 2011 provides for
changing the Statutory PAYGO Act so that the off-budget effects of the Postal Service
Fund are considered as on-budget effects. Such a change could be categorized as an
extraordinary intervention. The proposal has met with some criticism, and it is uncertain
whether it would succeed.

Regardless of the approach to dealing with budget enforcement that is chosen, it is of
paramount importance that the political objective be defined clearly and that strong
political support be marshaled behind the effort. Once political agreement is attained,
the procedures to implement it often readily fall into
place.                                                   Once political agreement is
                                                            attained, the procedures to
Finally, it must be observed that any party interested      implement it often readily fall
in pursuing legislative initiatives in Congress must be     into place.
ever-vigilant regarding the revision of existing budget enforcement procedures or the
imposition of new ones. While this report has addressed some long-standing
enforcement procedures, it also has examined three new ones (the Statutory PAYGO


                                                 30
U.S. Postal Service Office of Inspector General                        February 22, 2012
Budget Enforcement Procedures and the Postal Service                   RARC-WP-12-007


Act, the House CUTGO rule, and the Budget Control Act) that were adopted only within
the past 2 years.




                                                 31
U.S. Postal Service Office of Inspector General        February 22, 2012
Budget Enforcement Procedures and the Postal Service   RARC-WP-12-007




                                         Appendices




                                                 32
U.S. Postal Service Office of Inspector General                                    February 22, 2012
Budget Enforcement Procedures and the Postal Service                               RARC-WP-12-007




Appendix A             Recent History of Budget Enforcement

Significantly different budget enforcement procedures have existed over the past
several decades as Table 4 shows. Beginning in 1975, the House and Senate focused
on the enforcement of their own annual budget plan, the budget resolution, under the
Congressional Budget Act of 1974, relying on points of order and the reconciliation
process.

                  Table 4: Summary of Selected Budget Enforcement Procedures

                           Enforcement            Principal        Basis of
    Procedure              Mechanism(s)          Enforcer(s)      Procedure            Duration
Congressional           Points of order and    House and       Congressional        1975-present
budget process          reconciliation         Senate Budget   Budget Act of
                        process                Committees      1974
Deficit targets         Sequestration          President and   Gramm-Rudman-        1985-1990
                                               OMB             Hollings Act
                                                               (1985)
Discretionary           Sequestration          President and   Budget               1990-2002
spending caps and                              OMB             Enforcement Act
PAYGO requirement                                              of 1990
Senate PAYGO rule       Point of order         Senate Budget   Provisions in        1993-present
                                               Committee       annual budget
                                                               resolutions
PAYGO rule for          Review of agency       OMB             OMB guidance         2005-present
administrative          budget requests                        (Memorandum
actions                                                        05-13)

House PAYGO rule        Point of order         House Budget    House Rule XXI,      2007-2010
                                               Committee       Clause 10
PAYGO requirement       Sequestration          President and   Statutory Pay-As-    2010-present
                                               OMB             You-Go Act of
                                                               2010
House CUTGO rule        Point of order         House Budget    House Rule XXI,      2011-present
                                               Committee       Clause 10
Discretionary           Sequestration          President and   Budget Control       2011-present
spending caps and                              OMB             Act of 2011
targets for spending
cuts



In 1985, after a decade of experience with this process, and facing unprecedented
deficits, Congress and the President sought to strengthen enforcement by adding
statutory deficit targets enforced by sequestration under the so-called Gramm-Rudman-




                                                 33
U.S. Postal Service Office of Inspector General                                 February 22, 2012
Budget Enforcement Procedures and the Postal Service                            RARC-WP-12-007


Hollings (GRH) Act, officially named the Balanced Budget and Emergency Deficit
Control Act of 1985.47 (Sequestration involves the automatic triggering of largely across-
the-board spending cuts in nonexempt programs if the deficit targets are not met.) This
change shifted considerable power over budgetary enforcement to the President and
the OMB director.

The GRH deficit targets were not successful. Although they remained in law until the
mid-1990s, they effectively were superseded in 1990 by discretionary spending limits
and a PAYGO requirement established in the Budget Enforcement Act (BEA) of 1990.
Sequestration was retained as the enforcement mechanism for the two sets of
procedures.

To buttress the PAYGO requirement, the Senate established an internal PAYGO rule in
1993. After several unsuccessful attempts, the House established its own PAYGO rule
in 2007. In the meantime, the statutory PAYGO process established under the BEA of
1990 (and extended by later laws) was terminated in late 2002, a few months after the
statutory limits on discretionary spending expired. A revised statutory PAYGO process
was reinstituted in 2010. The next year, the House replaced its PAYGO rule with a “Cut-
As-You-Go” (CUTGO) rule. In August 2011, the Budget Control Act of 2011 was
enacted. It provides for discretionary spending caps until FY 2021 and triggers at least
$1.2 billion in mandatory and discretionary spending cuts if a proposal by the
Supercommittee fails to be enacted.




47
     The 1985 Act is Title II of Public Law 99-177 (2 U.S.C. §§ 900 et seq.).




                                                             34
U.S. Postal Service Office of Inspector General                               February 22, 2012
Budget Enforcement Procedures and the Postal Service                          RARC-WP-12-007




Appendix B             The Budget Reconciliation Process

The budget reconciliation process is an optional procedure that operates as an adjunct
to the budget resolution process. Reconciliation procedures are set forth in Section 310
(2 U.S.C. 641) of Congressional Budget Act of 1974. The chief purpose of the
reconciliation process is to enhance Congress’s ability to change current law in order to
bring revenue, spending, and debt-limit levels into conformity with the policies of the
annual budget resolution. With regard to spending, reconciliation is used almost
exclusively to change mandatory spending levels, not discretionary spending levels.

Reconciliation is a two-step process. First, reconciliation directives are included in the
budget resolution, instructing the appropriate committees to develop legislation
achieving the desired budgetary outcomes. Reconciliation directives instruct specified
committees to develop legislation changing existing law in order to alter revenue,
spending, or debt-limit levels to conform to budget resolution policies. Over the years,
compliance with reconciliation directives has been determined on the basis of the net
revenue or spending effects of all changes in the legislation. A particular reconciliation
measure, therefore, may have included changes that raised spending as well as
changes that reduced spending, changes that raised revenue as well as changes that
reduced revenue, or both, and still adhered to the overall budgetary goals. (In 2007, the
House and Senate changed their rules to require that reconciliation be used only to
reduce the deficit, but in 2011 the House again revised its rules to allow reconciliation to
be used to reduce revenues.)

If the budget resolution instructs more than one committee in a chamber, then the
instructed committees submit their legislative recommendations to their respective
Budget Committees by the deadline prescribed in the budget resolution. The Budget
Committees incorporate them into an omnibus budget reconciliation bill without making
any substantive revisions. In cases where only one committee has been instructed, the
process allows that committee to report its reconciliation legislation directly to its parent
chamber, thus bypassing the Budget Committee.

The second step involves consideration of the resultant reconciliation legislation by the
House and Senate under expedited procedures. Among other things, debate in the
Senate on any reconciliation measure is limited to 20 hours (and 10 hours on a
conference report) and amendments must be germane and not include extraneous
matter. These procedures effectively insulate a reconciliation measure from a filibuster.
In the House, the Rules Committee typically recommends a special rule for the
consideration of a reconciliation measure that places restrictions on debate time and the
offering of amendments.

One factor that potentially inhibits the use of the reconciliation process to make
sweeping changes in policy is the Senate’s “Byrd Rule” (Section 313 of the 1974 Act; 2
U.S.C. 644), named after its sponsor, the late Senator Robert C. Byrd. The rule bars the
inclusion of extraneous matter in a reconciliation measure and serves to restrict the


                                                 35
U.S. Postal Service Office of Inspector General                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                        RARC-WP-12-007


content of the measure to solely those provisions that are necessary to achieve the
budgetary goals identified in the reconciliation directives. When the consideration of a
reconciliation measure is expected to be contentious, the Byrd Rule operates as a
powerful deterrent to the inclusion of many potentially extraneous provisions.

If the House and Senate do not reach final agreement on a budget resolution, then the
reconciliation process is not triggered. During the 36 years prior to the FY 2013 cycle,
the House and Senate did not reach agreement on a budget resolution in five instances
— in1998 (for FY 1999), 2002 (for FY 2003), 2004 (for FY 2005), 2006 (for FY 2007),
2010 (for FY 2011), and 2011 (for FY 2012).

As an optional procedure, reconciliation has not been used in every year that the
congressional budget process has been in effect. Reconciliation was not used during
the first several years of the congressional budget process and, more recently, was not
used in years immediately following successful action on a budget summit agreement.
In 1990, for example, the George H. W. Bush Administration successfully negotiated a
budget summit agreement with Congress that was reflected in the FY 1991 budget
resolution. Pursuant to reconciliation directives in that resolution, Congress and the
President enacted the Omnibus Budget Reconciliation Act of 1990. Reconciliation was
not used in the following two years, involving budget resolutions for FY 1992 and
FY 1993.

Beginning with the first use of reconciliation by both the House and Senate in 1980,
reconciliation has been used in most years. Congress has sent the President 23
reconciliation acts over the years; 20 were signed into law and three were vetoed by
President Bill Clinton (and the vetoes not overridden).




                                                 36
U.S. Postal Service Office of Inspector General                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                        RARC-WP-12-007



Appendix C             The Statutory PAYGO Act of 2010

On February 12, 2010, the Statutory Pay-As-You-Go Act of 2010 (Title I of
Public Law 111-139) was enacted into law as part of a measure increasing the statutory
limit on the public debt.

The Statutory Pay-As-You-Go Act of 2010 (Statutory PAYGO Act) establishes a
process intended, as Section 2 of the Act states, “to enforce a rule of budget neutrality
on new revenue and direct spending legislation.” (“Direct spending” is a synonym for
“mandatory spending.”) The budgetary effects of revenue and mandatory spending
provisions enacted into law, including both costs and savings, are recorded by the
Office of Management and Budget (OMB) on two PAYGO scorecards covering rolling
five-year and 10-year periods (i.e., in each new session, the periods covered by the
scorecards roll forward one fiscal year).

The budgetary effects of PAYGO measures are determined by statements inserted into
the Congressional Record by the chairmen of the House and Senate Budget
Committees and referenced in the measures. As a general matter, the statements are
expected to reflect cost estimates prepared by the Congressional Budget Office. If this
procedure is not followed for a PAYGO measure, then the budgetary effects of the
measure are determined by OMB. The statutory PAYGO process addresses only those
budgetary effects that are on budget; pursuant to Section 3(4)(B) of the Act, the
budgetary effects of off-budget entities are not counted.

Shortly after a congressional session ends, OMB finalizes the two PAYGO scorecards
and determines whether a violation of the PAYGO requirement has occurred (i.e., if a
debit has been recorded for the budget year on either scorecard). If so, the President
issues a sequestration order that implements largely across-the-board cuts in
nonexempt mandatory spending programs sufficient to remedy the violation by
eliminating the debit. Many mandatory spending programs and activities are exempt
from sequestration. If no PAYGO violation is found, no further action occurs and the
process is repeated during the next session.

The new statutory PAYGO process was created on a permanent basis; there are no
expiration dates in the Act. The process became effective upon enactment.

As a budget enforcement tool, the new statutory PAYGO process is aimed at
preventing, or at least discouraging, net deficit increases arising from the enactment of
mandatory spending and revenue legislation. Any costs designated as emergencies are
excluded from the scorecards, and significant costs associated with four specified
categories of legislation may be excluded as well. In addition, significant savings
stemming from the Community Living Assistance Services and Supports (CLASS) Act,
establishing an insurance program for long-term care, are excluded from the
scorecards. Finally, debt service costs are excluded as well.




                                                 37
U.S. Postal Service Office of Inspector General                                             February 22, 2012
Budget Enforcement Procedures and the Postal Service                                        RARC-WP-12-007


The statutory PAYGO process does not address deficit increases arising from changes
in mandatory spending levels or revenue levels that are projected to occur under
existing law. Other budget enforcement procedures, such as the reconciliation process
under the Congressional Budget Act of 1974 (see Appendix B), may be used to reduce
deficit levels stemming from current law. Further, the statutory PAYGO process does
not apply to discretionary spending, which is provided in annual appropriations acts.

On January 24, 2012, OMB issued the 2011 PAYGO Report, as required by the Act.48
The report indicated that 33 laws subject to the PAYGO procedures were enacted in
2011. In addition, one law, the Temporary Payroll Tax Cut Continuation Act of 2011,
contained a provision explicitly excluding it from the scorecard.49 According to OMB, the
5-year scorecard reflected an average annual balance of more than $9 billion in
savings, and the 10-year scorecard reflected an average annual balance of more than
$7 billion in savings. Consequently, OMB determined that no sequestration order was
necessary.




48
   Office of Management and Budget, 2011 Statutory Pay-as-You-Go Act Annual Report, January 24, 2012,
http://www.whitehouse.gov/sites/default/files/omb/assets/paygo/2011_paygo_report_new.pdf.
49
   Public Law 112-78, December 23, 2011.




                                                      38
